CERTIFICATE OF SERVICE
NO. TBD
John Does 1 Through 10
Petitioner,
v.
Debra Haaland and Elizabeth Warren
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JOHN
DOES 1 THROUGH 10 PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Brooks M. Hanner
Office of General Counsel
U.S. House of Representatives
219 Cannon HOB
Washington, DC 20515
(202) 225-9700
brooks.hanner@mail.house.gov
Counsel for Deborah Haaland

Christina A. Ford
Perkins Coie
700 13th Street, N.W.
Suite 600
Washington, DC 20005-3960
(202) 654-6200
Counsel for Elizabeth Warren

Lucas DeDeus

February 1, 2021
SCP Tracking: Barnes-700 South Flower Street-Cover White

